                                       NATIONAL SCIENCE FOUNDATION
                                              4201 Wilson Boulevard
                                            ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTORGENERAL




MEMORANDUM

DATE:

TO:             Mary F. Santonastasso, Director
                Division of Institution and Award Support
                &A'+&. h
FROM:           Deborah H. Cureton
                Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-08-1-008
         Audit of Bermuda Institute of Ocean Sciences Multi-Year Incurred
         Costs Audit and FY 2005 Final Indirect Rates


In response to NSF's request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Tampa Bay Branch Office, to perform a series of audits of the Bermuda Institute
of Ocean sciences' (BIOS). As these audits are issued, we provide the results to the Division of
Institution and Award Support (DIAS).~This audit report covers $9.2 million in costs that BIOS
claimed for fiscal years (FY) 2002-2005 and the interim period through September 30,2006 on four
NSF awards, OCE-0202932,OCE-0505888,OCE-0326885, and OCE-0423771, and recommends
FY 2005 final indirect cost rates. Under the awards, BIOS provided equipment and ship operations
for two vessels, the Weatherbird 11, which was subsequently sold; and the Atlantic Explorer, a
newly-acquired research vessel. BIOS also performed the research award Times Series Studies in
the Atlantic Ocean.

The objectives of the audit were to determine allowability of direct and indirect costs for the four
NSF awards and to evaluate and recommend indirect cost rates for FY 2005.

The audit was performed in accordance with Generally Accepted Government Auditing Standards.
The DCAA audit report is attached to this memorandum.


' Bermuda Institute of Ocean Sciences is the former Bermuda Biological Station for Research or BBSR.
 The results of the first audit are in NSF OIG Audit Report No. OIG-07-1-018, Post Award Accounting System Audit of
Bermuda Institute of Ocean Sciences, dated September 27,2007.
                                                              NSF OIG Audit Report No. OIG-08- 1-008

Results of the Audit

Direct and Indirect Costs

With the exception of $253 which was over billed and subsequently reversed by BIOS as a result
of the audit, the report discloses that the costs claimed under the four awards, totaling
$9,253,438, are considered allowable, allocable, and reasonable for all direct and indirect costs in
accordance with the award terms and conditions, including the limitation on indirect recovery
required by NSF policy. The NSF Grant Policy Manual (GPM) provision limited recovery of
indirect rates to the budgeted rates established at the time of the BIOS awards., (See the Schedule
of Cumulative Allowable Costs in the attached report for the results of the audit by award
number).

DCAA also audited BIOS' actual FY 2005 indirect cost rates and determined that they are
acceptable as proposed. Additionally, DCAA verified that BIOS claimed on these two awards
the lower of the budgeted indirect rates, as NSF requires, although these rates are substantially
below BIOS' actual indirect cost rates.

                                                                                    Maximum
        Award No.                     Description                  Budgeted         Provisional        Actual

        OCE-0505888               Atlantic Explorer
        OCE-0326885               Atlantic Time Series
                                   Studies

As stated in our transmittal letter accompanying our previous audit of BIOS' Accounting system?
BIOS is under-recovering its actual indirect costs and has taken on additional debt for acquisition




NSF Requested Information

In response to a request from officials in NSF's Division of Ocean Sciences, DCAA was able to
verify that:

         Allocations of costs for "at sea" versus "at dock" ship time were accurate;
         Costs charged for the Major Overhaul Shipyard Account (MOSA) were accurate and not
    -
        -in-cluded-inBIOS' indirect pools and allocation bases;

3
 See NSF OIG Audit Report No. OIG-07-1-018, Post Award Accounting System Audit of Bermuda Institute of Ocean Sciences,
dated September 27,2007.
                                                   NSF OIG Audit Report No. OIG-08-1-008

       Costs for shipboard scientific equipment did not include indirect costs nor were the
       associated depreciation costs included in indirect cost pools;
       NSF is billed a daily rate based on actual ship costs, and the daily rate is correctly
       allocated among all users;
       Ship revenue was accurately recorded and used to calculate the NSF daily ship rate;
       Weatherbird I1 costs of sale were not booked or billed to IVSF awards.
       Atlantic Explorer depreciation costs are excluded from indirect pools allocated to NSF;
       and
       Costs charged for diesel and gasoline were accurate.

We are providing a copy of this memorandum to the Geosciences Directorate/Division of Ocean
Sciences (GEOIOCE). The responsibility for audit resolution rests with DIAS: Accordingly, we
ask that no action be taken concerning the report's findings without first consulting DIAS at (703)
292-8230.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

       Reviewed DCAAYsapproach and planning of the audit;
       Monitored the progress of the audit at key points;
       Coordinated periodic meetings with DCAA and OIG management to discuss audit progress,
       findings, and recommendations;
       Reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards and Office of Management and Budget
       Circulars; and
       Coordinated issu&ce'of the audit report.

DCAA is responsible for the attached auditor's report on BIOS and the conclusions expressed in
the report. The NSF OIG does not express any opinion on BIOSYsclaimed costs or the
conclusions presented in DCAA' s audit report.
                                                                           NSF OIG Audit Report No. OIG-08-1-008

                        We thank you and your staff for the assistance extended to us during the audit. If you have any
                        questions about this report, please contact Shenye McGregor at (703) 292-5003 or Jannifer
. .... . .
-   -   -~   . .. ..
                 -     .J.enkins.at,(70.3)292.-.49.Q6.. . . .. . . . . . ... . .. . . . .
                                                    .             .   ~   ~.
                                                                          . . .           . .. : . ..




                       Attachment: DCAA Audit Report No. 1271- 2007F17900001, Bermuda Institute of Ocean
                                   Sciences, Inc. Report on Multi-Year Incurred Costs Audit of Fiscal Years (FYs) 2002
                                   through 2005 and the Interim Period Ended September 30,2006, and FY 2005 Final
                                   Indirect Rates, dated November 5,2007.


                       cc:    Karen Tiplady, Division Director, BFAIDGA
                              Julie D. Morris, Division Director, GEOIOCE
                              Linda Goad, Program Director, GEOIOCE
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 1271-2007F17900001

                                                                     November 5, 2007

PREPARED FOR: Office of Inspector General
              ATTN: Ms. Deborah H. Cureton, Associate Inspector General for Audit
              National Science Foundation
              4201 Wilson Boulevard
              Arlington, Virginia 22230

PREPARED BY:       DCAA Tampa Bay Branch Office
                   10200 49th Street North, Suite 201
                   Clearwater, FL 33762-5030
                       Telephone No.      (727) 299-1100
                       FAX No.             (727) 299-1135
                       E-mail Address     dcaa-fao1271@dcaa.mil

SUBJECT:           Report on Multi-Year Incurred Costs Audit of Fiscal Years (FYs) 2002
                   through 2005 and the Interim Period Ended September 30, 2005, and FY
                   2005 Final Indirect Rates

REFERENCES:        Awards OCE-0202932, OCE-0326885, OCE-0423771, and OCE-0505888
                   Relevant Dates: See Page 7
                   DCAA Chron. No.: 8-9001

GRANTEE:           Bermuda Institute of Ocean Sciences, Inc.
                   Formerly Bermuda Biological Station for Research, Inc.
                   17 Biological Lane, Ferry Reach
                   St. George’s GE 01, Bermuda

REPORT RELEASE RESTRICTIONS: See Page 8

                                                                                   Page
CONTENTS:          Subject of Audit                                                 1
                   Scope of Audit                                                   1
                   Results of Audit                                                 2
                   Grantee Organization and Systems                                 5
                   DCAA Personnel and Report Authorization                          7
                   Audit Report Distribution and Restrictions                       8
                   Appendix                                                         9




                             FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

                                     SUBJECT OF AUDIT

         As you requested on August 11, 2006, authorization to proceed dated September 1, 2006,
received on October 27, 2006, we examined Bermuda Institute of Ocean Sciences, Inc. (BIOS)
formerly Bermuda Biological Station for Research, Inc. (BBSR)’s incurred costs proposals and
related books and records for reimbursement of awards OCE-0202932, OCE-0326885,
OCE-0423771, and OCE-0505888 of fiscal years (FYs) 2002 through 2005 and the last quarter
available at the time of our fieldwork from January 1, 2006 through September 30, 2006 incurred
costs. The purpose of the examination was to determine allowability of direct and indirect costs
and evaluate indirect cost rates for FY 2005. The proposed rates apply primarily to the awards
listed in the report’s Appendix, Page 9.

       The proposals are the responsibility of the grantee. Our responsibility is to express an
opinion based on our examination.


                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       •    evaluating the grantee's internal controls, assessing control risk, and determining the
            extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            grantee;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •    OMB Circular A-122, Cost Principles for Non-Profit Organizations;
       •    Federal Acquisition Regulation (FAR);
       •    NSF Grant Policy Manual (GPM); and
       •    Specific provisions contained in NSF Awards OCE-0202932, OCE-0326885,
            OCE-0423771, and OCE-0505888.

       BIOS claims exemption under 48 CFR 9903.201-1(b)(7) from the practices required by
the Cost Accounting Standards Board rules and regulations because the company's contracts and
subcontracts are executed and performed entirely outside the United States, its territories, and its
possessions.




                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

        As reported in Audit Report No. 1271-2007F17740001, dated May 24, 2007, we
considered BIOS’ accounting system inadequate in part, as described in the Grantee
Organization and Systems section of this report, Page 5. BIOS’ accounting system is deficient in
complying with the requirements of the Office of Management and Budget (OMB) Circular A-
122, Attachment A, Paragraph E.2.f. However, the identified deficiency does not affect the
scope of this audit. The scope of our examination reflects our assessment of control risk and
includes tests of compliance with laws and regulations that we believe provide a reasonable basis
for our opinion.


                                      RESULTS OF AUDIT

Indirect Rates

       In our opinion, the grantee's indirect rates for fiscal year (FY) 2005 are acceptable as
proposed.

       The grantee’s actual indirect rates are summarized below:

                                                  Allocation Base
                                       Indirect       FY 2005
                    Cost Center          Rate         Amount         Description
                 Ship Operations         xxxxx      xxxxxxxxx            (a)
                 Resident Science       xxxxx       xxxxxxxxx           (b)

       (a) Allocation Base – Total Atlantic Explorer ship operations direct costs excluding dry
           dock overhauls, and participant support costs.

       (b) Allocation Base – Total Resident Science direct costs excluding capital expenditures
           in excess of $10,000 each, subcontracts in excess of $25,000, and participant support
           costs.

       In accordance with NSF’s Grant Policy Manual (GPM), the grantee claimed during
FY 2005 the lower of the budgeted indirect rates established at the time of the award, the
maximum provisional rates established in NSF non-profit rate agreement dated October 7, 2005,
and the final rates established at the end of the accounting period, as summarized below:
                                                                           Maximum
  Award No.                         Description               Budgeted Provisional Actual
                                                                  (c)         (d)
  OCE-0202932 Weatherbird II (a)                                    -           -          -
  OCE-0505888 Atlantic Explorer                                  xxxxx        xxxxx     xxxxx
  OCE-0326885 Atlantic Time Series Studies                       xxxxx        xxxxx     xxxxx
  OCE-0423771 Shipboard Scientific Equipment (b)                   -           -          -



                                                  2

                                    FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

       (a) No costs incurred in FY 2005.

       (b) In accordance with award’s terms, no indirect costs loadings are claimed.

       (c) In accordance with NSF’s GPM, lower rates claimed on awards under review.

       (d) Maximum provisional rates established in NSF non-profit rate agreement dated
           October 7, 2005.

Direct Costs

        In our opinion, claimed direct costs are acceptable and are provisionally approved,
pending final acceptance. Final acceptance of amounts proposed under Government awards does
not take place until performance under the award is completed and accepted by the cognizant
authorities and the audit responsibilities have been completed.

       Per your request, we evaluated specific areas that you identified as high risk and included
them in our scope of audit, as described below. On a test basis, we examined evidence
supporting the amounts and disclosures in the data and records evaluated.

       (1) Ship Log – We reviewed the ship’s log including dates at sea and expedition
           information. On a test basis, we reconciled the ship’s log dates to (i) budgeted dates
           under NSF ship operations awards, (ii) funded cruise reports from the University
           National Oceanographic Laboratory System (UNOLS), (iii) the ship checklist
           including yearly programmed plan and actual sea days information, and (iv) the ship
           utilization forms including scientists names, research description, and the funded
           days at sea.

       (2) Major Overhaul Shipyard Account (MOSA) – We examined MOSA’s budgeted and
           actual booked costs, and traced to supporting books and records. These costs are
           billed as direct costs excluding indirect loadings. Accordingly, the costs are
           excluded from BIOS indirect pools and allocation bases.

       (3) Shipboard Scientific Equipment – In accordance with NSF award OCE-0423771
           terms and conditions, we verified that the claimed costs do not include indirect
           loadings. Also, we reviewed that the associated equipment’s depreciation expense is
           not included in the indirect pools.

       (4) Ship’s Daily Rate – The rate is calculated for budgeting and funding purposes by
           dividing the ship’s yearly budgeted research expenses by the number of funded days
           at sea. BIOS’ claimed costs to NSF are not based on the calculated daily rate.
           However, the rate is use for other ship users and the revenue received is credited to
           the NSF awards.



                                                3

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

       (5) We reviewed the credited revenue under the ship operations awards, Weatherbird II
           Award No. OCE-0202932 and Atlantic Explorer Award No. OCE-0505888. On a
           test basis, we evaluated BIOS’ booked revenue to ensure that there was no additional
           revenue allocable to the NSF awards. The ship daily rate for FY 2005 was calculated
           as follows:

                              Budgeted Daily Rate for FY 2005
                        Estimated Research Costs         X     xxxx
                        Research Sea Days                     xxxxx
                        Ship Daily Rate                  X     xxxx

       (6) Weatherbird II Sale Costs – We verified that the ship’s sale costs are not booked or
           billed to NSF awards. All sale associated costs are accumulated in a separate general
           ledger account.

       (7) Atlantic Explorer Depreciation Costs – NSF did not grant any funding for the
           purchase of the Atlantic Explorer. Therefore, we verified that the ship’s depreciation
           expense is excluded from the indirect pools allocated to NSF.

       (8) Diesel & Gasoline Agreement – We reviewed BIOS’ diesel and gasoline agreement
           with ESSO Bermuda, a division of Coral Petroleum Company Limited, for FYs 2000
           through 2008. The agreement is to supply fuels, lubricants, and other petroleum
           products at a variable cost. On a test basis, we traced the agreement’s rates to
           supporting invoices and proof of payment.

Cumulative Allowable Cost Worksheet (CACWS)

        The costs noted on the schedule of cumulative allowable costs in the report’s Appendix,
Page 9, represent costs that are considered allowable under the listed awards and are, therefore,
reimbursable. In accordance with NSF’s GPM, the grantee claimed budgeted rates, which are
lower than the maximum provisional rates established in NSF non-profit rate agreement dated
October 7, 2005, and final rates established at year end of each accounting period. As requested,
we presented the costs per award period of performance through September 30, 2006, the last
quarter available at the time of our fieldwork. For those awards identified as “Ready to Close,”
the information on the CACWS should be used for closeout procedures by the Contracting
Officer.

       We discussed the results of our examination with X        xxxx X         xxxx, Financial
Controller, in an exit conference held on September 6, 2007. Accordingly, the grantee concurred
with the results of audit.




                                               4

                                FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

                       GRANTEE ORGANIZATION AND SYSTEMS

1. Organization:

        The Bermuda Institute of Ocean Sciences, Inc. (BIOS) formerly Bermuda Biological
Station for Research, Inc. (BBSR) was founded in 1903 by scientists as a station for research in
biology and zoology. BBSR was incorporated in New York in 1926 as a U.S. not-for-profit
organization and by 1932 its present location was opened in Ferry Reach, St. George's, Bermuda.
BBSR changed its name to Bermuda Institute of Ocean Sciences, Inc. (BIOS) on April 4, 2007 to
reflect the change of the research station into an institute focused on the study of marine and
atmospheric systems. BIOS’ revenues for its fiscal year ending December 31, 2006 were
approximately $13.3 million, of which approximately 36 percent were from the U.S. Federal
Government.

2. Accounting System:

        As reported in Audit Report No. 1271-2007F17740001, dated May 24, 2007, BIOS’
accounting system is inadequate in part for accumulating and billing costs under Government
awards. BIOS’ accounting system is deficient in complying with the requirements of the Office
of Management and Budget (OMB) Circular A-122, Attachment A, Paragraph E.2.f. However,
the identified deficiency does not affect the scope of this audit. BIOS’ accounting period is from
January 1st to December 31st. BIOS maintains an accounting system on the accrual basis in
accordance with generally accepted accounting principles. BIOS’ accounting system is posted
on a current basis. Appropriate adjusting entries are made at the end of each month and at year
end. BIOS’ prepares financial statements on an annual basis. The annual financial statements
are audited by O’Connor Davies Munns & Dobbins, LLP.

        BIOS maintains a job cost accounting system which is fully integrated in the overall
accounting system, wherein grants are assigned individual project numbers and direct costs are
identified and charged to those numbers. Indirect costs are identified and accumulated under
individual departments, which in turn are identified to the various indirect cost pools. Indirect
expenses are grouped in indirect pools. The following schedule describes BIOS indirect cost
pools and related allocation bases, and the type of effort normally charged direct and indirect:

                            Indirect Cost Pools and Allocation Bases

Indirect Cost Pool                                Allocation Base
Resident Science Total direct costs excluding capital expenditures in excess of X    xxx each,
                   individual subcontract costs in excess of X      xxxand participant support
                   costs.

Ship Operations     Total direct costs excluding dry dock overhauls and participant support costs.




                                                5

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001



      The Following Effort Is Normally Charged Direct:

      •   Direct time of direct labor employees;
      •   Premium (overtime, shift, field) time of direct labor;
      •   Raw material, purchased parts and subcontracted items;
      •   Travel expenses incurred by direct employees;
      •   Freight charges for direct raw materials,- purchased parts, and subcontracted items;
      •   Purchase, fabrication or rental of special tooling or test equipment;
      •   Professional services and consultant fees for direct effort; and
      •   Temporary help to perform direct effort.

      The Following Effort Is Normally Charged Indirect:

      •   Management, supervisory, and clerical salaries;
      •   Indirect time of direct employees;
      •   Premium (overtime and shift) of indirect employees;
      •   Social Security, unemployment insurance, workmen's compensation, group insurance,
          pension expense, vacation and holiday pay;
      •   Travel expense associated with indirect labor effort; and
      •   Other expenses such as general operating supplies, depreciation, employee wellness
          programs, utilities, rental costs of facilities, and general purpose equipment.




                                               6

                               FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

                                      DCAA PERSONNEL

Primary contacts regarding this audit:                                      Telephone No.

         Jannette M. Reyes, Auditor                                         (787) 707-2903
         Judy Bryan, Technical Specialist                                   (561) 796-3555
         Mary Ann Yenchus, Supervisory Auditor                          (954) 356-7337 ext. 218

Other contacts regarding this audit report:

         Gary R. Ricketts, Branch Manager                                   (727) 299-1113
         Marc Parvin, Sr. Financial Liaison Advisor                         (703) 767-2271

                                                                               FAX No.
         Tampa Bay Branch Office                                            (727) 299-1135
         Marc Parvin, Sr. Financial Liaison Advisor                         (703) 767-2279

                                                                            E-mail Address
         Tampa Bay Branch Office                                        dcaa-fao1271@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.


                                      RELEVANT DATES

Request for Audit:      Office of Inspector General, National Science Foundation (NSF),
                        Dated August 11, 2006.

Due Date Extensions: Dated April 19, 2007, extended to August 15, 2007;
                     Dated August 9, 2007, extended to August 17, 2007;
                     Dated August 14, 2007, extended to September 7, 2007;
                     Dated September 7, 2007, extended to October 5, 2007;
                     Dated October 1, 2007, extended to October 26, 2007; and
                     Dated October 25, 2007, extended to November 5, 2007.


AUDIT REPORT AUTHORIZED BY:


                                                    /s/ Mary Ann Yenchus
                                              /for/ Gary R. Ricketts
                                                    Branch Manager
                                                    DCAA Tampa Bay Branch Office



                                               7

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001

                 AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION                                                        E-mail Address

National Science Foundation                                       dcureton@nsf.gov
ATTN: Deborah H. Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

National Science Foundation                                       smcgrego@nsf.gov
ATTN: Sherrye McGregor
Attorney Advisor
4201 Wilson Boulevard
Arlington, VA 22230

Bermuda Biological Station for Research, Inc.                 (Copy furnished thru NSF)
17 Biological Lane, Ferry Reach
St. George’s GE 01, Bermuda

Defense Contract Audit Agency           DCAA-SRFLA-NONDOD-Army-team1@dcaa.mil
ATTN: OAL – Sr. Non-DOD FLA/Marc Parvin
8725 John J. Kingman Road, Suite 2135                Telephone No.
Fort Belvoir, VA 22060-6219                          (703) 767-2271


RESTRICTIONS

1. Information contained in this audit report may be proprietary. It is not practical to identify
   during the conduct of the audit those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act requests for audit reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.

3. Do not use the information contained in this audit report for purposes other than action on the
   subject of this audit without first discussing its applicability with the auditor.




                                                8

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2007F17900001                                               APPENDIX



                  SCHEDULE OF CUMULATIVE ALLOWABLE COSTS
                           AS OF SEPTEMBER 30, 2006

                                     Interim        Total
                                      Period     Cumulative     Cumulative Ready        (Over)
                   Fiscal Years       Ended       Allowable    Billings as of   to      Under
 Award No.         2002 - 2005      9/30/2006       Costs       9/30/2006     Close     Billed
                        (1)            (2)           (3)             (4)
 OCE-0202932        X     xxxx     X     xxxx    X     xxxx    X       xxxx    xxx       x x
 OCE-0505888        X     xxxx     X     xxxx    X     xxxx    X       xxxx   Xxx        Xxx
 OCE-0326885        X     xxxx     X     xxxx    X     xxxx    X       xxxx   Xxx       Xx x
 OCE-0423771          X      xx              x          xxx           xxxx     xxx       X x
    Total          $X       xxx     $      xxx   $     xxxx    X       xxxx             $ xxx

   (1) These amounts represent total allowable costs through FY 2005.

   (2) As requested, we provided allowable costs information for the last quarter available at the
       time of our fieldwork, as of September 30, 2006.

   (3) These amounts represent total cumulative allowable costs, calculated using budgeted
       rates in accordance with NSF’s Grant Policy Manual (GPM), since the budgeted rates
       established at the time of the award, are lower than the maximum provisional rates
       established in NSF non-profit rate agreement dated October 7, 2005, and the final rates
       established at the end of the accounting periods.

   (4) These amounts represent total billed cost from awards’ inception through
       September 30, 2006, as reconciled to NSF’s Federal Cash Transaction report for the
       quarter ended September 30, 2006, SF 272.




                                                 9

                                  FOR OFFICIAL USE ONLY
